Washington, D.C. 20530

August 31, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 2054
Re:

Jimmy Lee Franklin v. United States of America,
S.Ct. No. 20-5030

Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on July 7, 2020. Although the
government waived its right to file a response, the Court has requested that a response be filed.
The government’s response is now due on September 2, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including October 9, 2020, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-5030
FRANKLIN, JIMMY LEE
USA

BRENDA GREENBERG BRYN
FEDERAL PUBLIC DEFENDER
ONE EAST BROWARD BOULEVARD
STE. 1100
FORT LAUDERDALE, FL 33301
954-356-7436
BRENDA_BRYN@FD.ORG

